HHS/OIG, Audit - "Review of the Do Forward Initiative," (A-02-02-01023)
Department
of Health and Human Services
"Review of the Do Not Forward Initiative," (A-02-02-01023)
February 21, 2003
Complete Text of Report is available in PDF format
(3.98 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the review was to evaluate the accounting controls and processes
for recording and reporting expenses, liabilities and cash expenditures for
checks returned or withheld from Medicare providers under the "Do Not Forward
(DNF) Initiative."  The review identified system limitations and weaknesses
in the implementation of the DNF guidelines that resulted in misstatements totaling
$4,845,530 in Region II carriers financial reports.  We recommended that
the Centers for Medicare and Medicaid Services (CMS) regional office work with
its contractors to effectively implement the DNF guidelines, assure that the
misstatements of the financial reports have been properly resolved, and follow
up with the contractors to ensure that their financial reports are accurately
prepared.  The CMS regional office concurred with the recommendations.
Since the system limitations identified by this review could affect contractors
outside Region II, this matter has also been referred to the CMS central office
for further consideration.